No. 20-A90

In the Supreme Court of the United States
AGUDATH ISRAEL OF AMERICA, AGUDATH ISRAEL OF KEW GARDEN HILLS, AGUDATH
ISRAEL OF MADISON, RABBI YISROEL REISMAN, STEVEN SAPHIRSTEIN,
Applicants,

v.

ANDREW M. CUOMO, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF NEW YORK,
Respondent.
To the Honorable Stephen Breyer, Associate Justice of the United States
Supreme Court and Acting Circuit Justice for the Second Circuit
CERTIFICATE OF COMPLIANCE
I, Stephanie Hall Barclay, a member of the Bar of this Court and counsel for
the amici on the accompanying Motion by The Muslim Public Affairs Council,
Religious Freedom Institute’s Islam and Religious Freedom Action Team, and Asma
Uddin, with Attached Proposed Amicus Curiae Brief in Support of Applicant’s
Emergency Application for Writ of Injunction, for Leave (1) to File the Brief; and (2)
to Do So without Ten Days’ Advance Notice to the Parties, certify under Rule 33.1(h)
of the Rules of this Court that the motion contains 363 words and the brief contains
3,452 words, excluding the parts that are exempted by Rule 33.1(d).

Stephanie Hall Barclay

